October 5, 2020
Clerk of the U.S. Supreme Court
Supreme Court of the U.S.
1 First Street, NE
Washington, DC 20543
Re:

Rafael Martinez, et als., Petitioners v. Bryheim Jamar Baskin, Respondent
Writ of Certiorari

Dear Clerk of the U.S. Supreme Court:
I am counsel for the Petitioners in the above referenced matter.
Enclosed please find a copy of the Petitioners’ Brief in Support of a Writ of Certiorari
with Appendix, and a certification of service upon the respondents served via overnight delivery.
Please accept this document as being timely filed as per court rules and the Clerk’s
Notice dated April 17, 2020.

Very Truly Yours,
/s/ Timothy J. Galanaugh
Timothy J. Galanaugh
Assistant City Attorney
Attorney for Petitioners
TJG:sse
Encl.
Cc: Zachary L. Grayson, Esquire

SUITE 419, CITY HALL, P.O. BOX 95120, CAMDEN, NEW JERSEY 08101-5120

